No. 19-422
IN THE

Supreme Court of the United States
PATRICK J. COLLINS, et al.,
Petitioners,
v.
STEVEN T. MNUCHIN,
Secretary, U.S. Department of Treasury, et al.,
Respondents.
On Writ of Certiorari to
the U.S. Court of Appeals
for the Fifth Circuit
BRIEF OF THE NEW CIVIL LIBERTIES ALLIANCE
AS AMICUS CURIAE IN SUPPORT OF PETITIONERS

Richard A. Samp
(Counsel of Record)
Mark Chenoweth
Harriet M. Hageman
New Civil Liberties Alliance
1225 19th St. NW, Suite 450
Washington, DC 20036
(202) 869-5210
rich.samp@ncla.legal

September 23, 2020

QUESTIONS PRESENTED
1. Whether the structure of the Federal Housing
Finance Agency (FHFA)—an “independent” agency
headed by a single Director who can only be removed
for cause by the President and is exempt from the
congressional appropriations process, 12 U.S.C.
§§ 4512(b)(2), 4516(f)(2)—violates the separation of
powers.
2. Whether the courts must set aside a final
agency action that FHFA took when it was
unconstitutionally structured and strike down the
statutory provisions that make FHFA independent.

iii

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
INTERESTS OF AMICUS CURIAE . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 4
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
I.

SEILA LAW REQUIRES INVALIDATION OF
THE FHFA REMOVAL RESTRICTION . . . . . . . . . 8
A.

Seila Law Recognized Only Two
Limited Exceptions to the General
Rule Barring Removal Restrictions
and Neither Is Applicable Here . . . . . . 9

B.

There Are No Meaningful
Distinctions Between the FHFA
Removal Restriction and the One
Invalidated in Seila Law . . . . . . . . . . 12

C.

The FHFA Removal Restriction
Lacks Any Historical Pedigree . . . . . . 19

D.

Non-jurisdictional Objections to
Addressing the Shareholders’
Separation-of-Powers Claims Are
Not Properly Before the Court . . . . . 22

iv

Page
II.

THE SHAREHOLDERS ARE ENTITLED TO A
MEANINGFUL REMEDY FOR THE INJURY
THEY INCURRED AS A RESULT OF THE
CONSTITUTIONAL VIOLATION . . . . . . . . . . . . . 25

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

v

TABLE OF AUTHORITIES
Page(s)
Cases:
Bowsher v. Synar,
478 U.S. 714 (1986) . . . . . . . . . . . . . . . . . . . . . . 9, 24
Edmond v. United States,
520 U.S. 651 (1997) . . . . . . . . . . . . . . . . . . . . . . . . 12
Free Enterprise Fund v.
Public Co. Accounting Oversight Bd.,
561 U.S. 477 (2010) . . . . . 5, 9, 10, 15, 17, 18, 19, 26
Humphrey’s Executor v. United States,
295 U.S. 602 (1935) . . . . . . . 7, 10, 11, 12, 18, 21, 22
Loving v. United States,
517 U.S. 748 (1998) . . . . . . . . . . . . . . . . . . . . . . . . 17
Lucia v. SEC,
138 S. Ct. 2044 (2018) . . . . . . . . . . . . . . . . . . . 27, 28
Morrison v. Olson,
487 U.S. 654 (1988) . . . . . . . . . . . . . . . 10, 11, 12, 21
Myers v. United States,
272 U.S. 52 (1926) . . . . . . . . . . . . . . . . . . . . 9, 10, 19
NLRB v. Noel Canning,
573 U.S. 513 (2014) . . . . . . . . . . . . . . . . . . . . . . . . 27
Northwest Airlines, Inc. v. County of Kent,
510 U.S. 355 (1994) . . . . . . . . . . . . . . . . . . . . . . . . 23
Ryder v. United States,
515 U.S. 179 (1995) . . . . . . . . . . . . . . . . . . . . . . . . 28
Seila Law LLC v. Consumer Financial Protection
Bureau, 140 S. Ct. 2183 (2020). . . . . . . . . . . passim
United States v. Perkins,
116 U.S. 483 (1886) . . . . . . . . . . . . . . . . . . . . . 10, 21
United States v. Samuels,
808 F.2d 1298 (8th Cir. 1987) . . . . . . . . . . . . . . . . 23
United States v. Sineneng-Smith,
140 S. Ct. 1575 (2020) . . . . . . . . . . . . . . . . . . . 23, 24

vi

Pages
Statutes and Constitutional Provisions:
U.S. Const., Art. II, § 1, cl. 1 . . . . . . . . . . . . . . . . . 4, 6
U.S. Const., Art. II, § 2, cl. 2
(Appointments Clause) . . . . . . . . . . . . . . . . . . 27, 28
U.S. Const., Art. II, § 3. . . . . . . . . . . . . . . . . . . . . . 4, 9
U.S. Const., Art. III . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Housing and Economic Recovery Act of 2008,
Pub. L. 110-289 (HERA) . . . . . . . 6, 7, 14, 16, 23, 25
12 U.S.C. § 4512(b)(2) . . . . . . . . . . . 3, 8, 25, 26
12 U.S.C. § 4516 . . . . . . . . . . . . . . . . . . . . . . 18
12 U.S.C. § 4631 . . . . . . . . . . . . . . . . . . . . 7, 16
12 U.S.C. § 5491(c)(3). . . . . . . . . . . . . . . . . . . . . . . . . 3
12 U.S.C. § 5563(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Miscellaneous:
The Federalist No. 51 (J. Cooke ed. 1961)
(J. Madison) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
1 Annals of Cong. 499 (J. Madison). . . . . . . . . . . . . 14
Julian Davis Mortensen, Article II Vests the
Executive Power, Not the Royal Prerogative,
119 Colum. L. Rev. 1169 (2019) . . . . . . . . . . . . . . 24

INTERESTS OF AMICUS CURIAE
The New Civil Liberties Alliance (NCLA) is a
nonpartisan, nonprofit civil-rights organization
devoted to defending constitutional freedoms from
violations by the administrative state.1 The “civil
liberties” of the organization’s name include rights at
least as old as the U.S. Constitution itself, such as jury
trial, due process of law, the right to be tried in front of
an impartial and independent judge, and the right to
live under laws made by the nation’s elected
lawmakers through constitutionally prescribed
channels. Yet these self-same rights are also very
contemporary—and in dire need of renewed
v i ndi c a t i o n — p r e c i s e l y b e c a u s e C o n g re s s,
administrative agencies, and even sometimes the
courts have neglected them for so long.
NCLA aims to defend civil liberties—primarily
by asserting constitutional constraints on the
administrative state. Although Americans still enjoy
the shell of their Republic, there has developed within
it a very different sort of government—a type, in fact,
that the Constitution was designed to prevent. This
unconstitutional administrative state within the
Constitution’s United States is the focus of NCLA’s
concern.

1

Pursuant to Supreme Court Rule 37.6, NCLA states that
no counsel for a party authored this brief in whole or in part; and
that no person or entity, other than NCLA and its counsel, made
a monetary contribution intended to fund the preparation and
submission of this brief. All parties have consented to the filing.

2
NCLA is particularly disturbed by the manner
in which Congress established the Federal Housing
Finance Agency (FHFA)—an agency that was clearly
designed to flout the Constitution’s separation of
powers and its representative form of government.
Americans enjoy a constitutional freedom to elect the
person in whom the Constitution vests the executive
power, and the Constitution thereby makes the
exercise of executive power accountable to the people.
Nonetheless, Congress has now sought to protect
the Director of FHFA from removal, thus depriving
Americans of their constitutional right to live under a
government in which executive power is accountable to
them through the President. This right to a republican
form of government is among those that are threatened
by independent agencies, and it is one that NCLA
seeks to protect by participating in cases such as this.
The United States now concedes, following this
Court’s decision in Seila Law LLC v. Consumer
Financial Protection Bureau, 140 S. Ct. 2183 (2020),
that FHFA’s structure violates separation-of-powers
principles. But because a court-appointed amicus
curiae will be arguing that “the structure of the
Federal Housing Finance Agency does not violate the
separation of powers,” NCLA is focusing much of this
brief on that constitutional issue. NCLA is not filing in
No. 19-563 and takes no position on the statutory
issues raised in that proceeding.
STATEMENT OF THE CASE
As the Court recognized in Seila Law, FHFA “is
essentially a companion of the CFPB, established in

3
response to the same financial crisis.” 140 S. Ct. at
2202. The two agencies are similarly structured; each
is headed by a single Director who is appointed to a
five-year term and may not be removed by the
President before the end of that term except for cause.
Compare 12 U.S.C. § 4512(b)(2) (President may remove
FHFA Director from office only “for cause”) with 12
U.S.C. § 5491(c)(3) (Director of CFPB may be removed
from office only for “inefficiency, neglect of duty, or
malfeasance in office.”)
A divided Fifth Circuit panel held that FHFA’s
structure violates separation of powers. Part II.B.2 of
Opinion, Pet. App. 199-237.
But it held that
Petitioners were limited to prospective relief only—i.e.,
a judgment striking the “for cause” removal language
from § 4512(b)(2). Id. at 238-40.
The en banc Fifth Circuit reached the same
result. By a 12-4 vote, the appeals court held that
FHFA is unconstitutionally structured. Id. at 63-72
(opinion of seven judges) (reinstating Part II.B.2 of the
panel opinion); id. at 73 n.1 (opinion of Haynes, J.)
(stating that she and four other judges agree that
“FHFA is unconstitutionally structured”). But by a 9-7
vote, the court held that the sole appropriate remedy
for that violation is to declare the “for cause” provision
severed. Id. at 73-81. The majority declined to provide
the principal remedy sought by Petitioners,
shareholders in Fannie Mae and Freddie Mac (the
“Shareholders”): invalidation of the Third Amendment
to the financing agreements entered into between the
Treasury Department and FHFA (in its capacity as
conservator of Fannie Mae and Freddie Mac). Ibid.

4
In dissent on the remedy issue, Judge Willett
(joined by six other judges) argued that the proper
remedy is to vacate the Third Amendment because
“[w]hen a plaintiff with Article III standing challenges
the action of an unconstitutionally-insulated officer,
that action must be set aside.” Pet. App. 152. In a
separate dissent, Judges Oldham and Ho argued that
the majority’s prospective-only remedy affords the
Shareholders “no relief whatever” and fails to “resolve
any case or controversy”—because the Shareholders
“do not complain about the possibility of future
regulatory activity.” Id. at 113.
A different 9-7 majority reinstated the
Shareholders’ claim that the Third Amendment
exceeded FHFA’s statutory powers as conservator,
holding that the district court improperly dismissed
that claim under Fed.R.Civ.P. 12(b). Pet. App. 37-58.
Both sides filed certiorari petitions, seeking review of
the Fifth Circuit’s judgment.
While those petitions were pending, the Court
issued its Seila Law decision, which held that CFPB,
FHFA’s “companion” agency, was unconstitutionally
structured—because its sole Director wielded
“significant executive power” yet was not “dependent
on the President.” 140 S. Ct. at 2211. The Court
thereafter granted both this petition and FHFA’s
petition in No. 19-563.
SUMMARY OF ARGUMENT
The U.S. Constitution vests all of the “executive
Power” in the President, who must “take Care that the
Laws be faithfully executed.” Art. II, § 1, cl. 1; id. § 3.

5
The Court has long held that, “as a general matter,”
the Constitution gives the President “the authority to
remove those who assist him in carrying out his
duties.” Free Enterprise Fund v. Public Co. Accounting
Oversight Bd., 561 U.S. 477, 513-14 (2010). Without
that removal power, “the President could not be held
fully accountable for discharging his own
responsibilities; the buck would stop somewhere else.”
Id. at 514.
The Court has recognized two limited exceptions
to the general rule barring restrictions on the
President’s removal authority, one for “multimember
expert agencies that do not wield substantial executive
power,” and one for “inferior officers with limited
duties and no policymaking or administrative
authority.” Seila Law, 140 S. Ct. at 2199-2200 (2020).
Neither of those exceptions applies here. FHFA is not
a multimember agency; it is headed by a single
Director. And the FHFA Director is not an “inferior
officer”; as the head of the agency, he possesses
substantial policymaking and administrative
authority.
Under those circumstances, Seila Law mandates
a finding that FHFA’s structure—which restricts the
President’s authority to remove the Director in the
absence of “cause”—violates the separation of powers.
Seila Law explicitly disapproved limits on removal
authority involving, as here, “principal officers who,
acting alone, wield significant executive power,”
explaining that “[t]he Constitution requires that such
officials remain dependent on the President, who in
turn is accountable to the people.” 140 S. Ct. at 2211.

6
There is no constitutionally meaningful
distinction between the removal restrictions at issue
here and the restrictions on removal of the CFPB
Director struck down by Seila Law. Both FHFA and
CFPB are independent agencies headed by a single
Director, each of whom serves a five-year term and
may be removed only for cause. Many of the CFPB
features cited by Seila Law as constitutionally
problematic—including exemption from the normal
appropriations process, regulation of vast segments of
the economy by a single individual, and the inability of
an incoming President to exert any influence on a
carry-over Director whose five-year tenure may
continue past the President’s four-year term—are also
features of HERA,2 the statute creating FHFA.
In its brief discussion of FHFA in Seila Law, this
Court mentions one factual distinction between FHFA
and CFPB: FHFA “regulates primarily Governmentsponsored entities [GSEs], not purely private actors.”
140 S. Ct. at 2202. But nothing in Seila Law suggests
that the distinction is relevant to the separation-ofpowers analysis. The President’s Article II authority
to control Executive Branch regulation of GSEs is no
less than his authority to control regulation of purely
private actors.
Seila Law notes that Congress has granted
CFPB considerable adjudicatory authority, including
authority to “conduct administrative proceedings to
‘ensure or enforce compliance with’ the statutes and

2

Housing and Economic Recovery Act of 2008, Pub. L.
110-289, 122 Stat. 2654.

7
regulations it administers” and to issue enforcement
orders. Id. at 2193 (quoting 12 U.S.C. § 5563(a)).
Unlike the petitioner in Seila Law, the Shareholders’
injury is not the product of an administrative
enforcement proceeding, albeit HERA authorizes the
FHFA Director to issue cease-and-desist orders to
regulated entities. See 12 U.S.C. § 4631. But the
constitutionality of a statute imposing a restriction on
presidential removal authority does not depend on the
context within which an injured party raises a
constitutional challenge.
Ensuring presidential control over the exercise
of executive power serves an important constitutional
purpose: it promotes Americans’ freedom to live under
a government in which executive power is accountable
to them through the President. Diffusion of executive
power subverts that right, and does so as least as much
in the case of FHFA (whose activities affect the entire
housing market) as in the case of CFPB.
Seila Law has called into question the continued
viability of Humphrey’s Executor v. United States, 295
U.S. 602 (1935), which upheld removal restrictions for
the heads of multimember expert agencies that do not
wield substantial executive power; it should be
overruled. But the Court need not revisit Humphrey’s
Executor to strike down the removal restriction at issue
here. The Court has acknowledged that the lengthy
historical pedigree of the removal restrictions at issue
in Humphrey’s Executor is one factor supporting their
retention.
As Seila Law recognized, removal
restrictions for the sole head of an executive agency
lack any similar pedigree; the handful of restrictions of
that nature were all adopted in the past 40 years, and

8
all have been controversial throughout their existence.
Seila Law, 140 S. Ct. at 22201-02.
Because FHFA’s structure violates the
separation of powers, the Shareholders are entitled to
a meaningful remedy for the injury inflicted on them
by that violation. The prospective-only remedy ordered
by the Fifth Circuit, however, is not meaningful. The
Shareholders complain about injury they have already
suffered (the government’s confiscation of the entire
net worth of Fannie Mae and Freddie Mac), not the
possibility of additional injury. The Court should
therefore devise a remedy that actually redresses the
complained-of injury.
The Shareholders have devoted considerable
time and resources to their successful effort to
demonstrate the unconstitutionality of FHFA’s
structure. Such efforts in support of constitutional
principles ought to be encouraged and rewarded. But
if the net result of a successful constitutional challenge
is a slap on the wrists of Congress and FHFA,
Congress will have little incentive not to adopt similar
statutes in the future, and injured parties will have
little incentive to challenge those statutes.
ARGUMENT
I.

SEILA LAW REQUIRES INVALIDATION OF THE
FHFA REMOVAL RESTRICTION

The FHFA is unconstitutionally structured.
Federal law states that the Director of FHFA may be
removed from office by the President only “for cause.”
12 U.S.C. § 4512(b)(2). That removal restriction

9
violates separation-of-powers principles because it
interferes with the President’s authority to control
subordinates within the Executive Branch and thereby
to ensure that the laws are “faithfully executed.” U.S.
Const., Art. II, § 3.
A.

Seila Law Recognized Only Two
Limited Exceptions to the General
Rule Barring Removal Restrictions,
and Neither Is Applicable Here

The Court has long held that, “as a general
matter,” the Constitution gives the President “the
authority to remove those who assist him in carrying
out his duties.” Free Enterprise Fund, 561 U.S. at 51314. Without that removal power, “the President could
not be held fully accountable for discharging his own
responsibilities; the buck would stop somewhere else.”
Id. at 514. Removal power is essential to maintaining
control over subordinates: “Once an officer is
appointed, it is only the authority that can remove
him, and not the authority that can appoint him, that
he must fear and, in the performance of his functions,
obey.” Bowshar v. Synar, 478 U.S. 714, 726 (1986)
(citation omitted).
The Court explained in Myers v. United States,
272 U.S. 52, 117 (1926), that implicit in the
Constitution’s charge that the President faithfully
execute the laws is both the power to “select those who
[a]re to act for him under his direction in the execution
of the law” and the “power of removing those for whom
he cannot continue to be responsible.” The Court
concluded that any doubt on that score was eliminated
by “the Decision of 1789”—the decision by the first

10
Congress that the President should have the power to
remove executive officers, a power that many Members
of Congress concluded was mandated by the
Constitution. Id. at 111-136.
Several subsequent Court decisions, including
Humphrey’s Executor, led some commentators to
question Myers’s continued vitality. But the Court’s
recent decisions reaffirm the “general rule” that the
President possesses the authority to remove those who
assist him in carrying out his duties. Seila Law, 140 S.
Ct. at 2198; Free Enterprise Fund, 561 U.S. at 513-14.
Seila Law left in place two exceptions to this
general rule. The first exception, recognized by
Humphrey’s Executor, permits Congress to impose
restrictions on the removal of the heads of a
multimember commission, at least to the extent that
the commission does not wield substantial executive
power. Seila Law, 140 S. Ct. at 2199-2200. The second
exception, recognized by United States v. Perkins, 116
U.S. 483 (1886), and Morrison v. Olson, 487 U.S. 654
(1988), permits Congress to impose restrictions on the
removal of inferior officers “with limited duties and no
policymaking or administrative authority.” Id. at
2200.
Seila Law involved a challenge to a statute
restricting the President’s power to remove the
Director of the CFPB, the “companion” agency to FHFA
(Congress having created both agencies in response to
the 2008 financial crisis). Id. at 2202. The Court
concluded that the removal restriction fit within
neither of the exceptions cited above. It deemed the

11
Humphrey’s Executor exception inapplicable for several
reasons, most obviously because “the CFPB is led by a
single Director who cannot be described as a ‘body of
experts.’” Id. at 2200. It deemed the Morrison
exception inapplicable because “the CFPB Director is
not an inferior officer” and has the authority to make
decisions that affect the lives of “millions of private
citizens and businesses.” Ibid.
Given the inapplicability of the two recognized
exceptions to the President’s unrestricted power to
remove executive officials, the Court addressed
“whether to extend those precedents to the ‘new
situation’ before us, namely an independent agency led
by a single Director and vested with significant
executive power.” Id. at 2200. The Court declined to
do so, concluding that “[s]uch an agency has no basis in
history and no place in our constitutional structure.”
Ibid.
Virtually all of the factors cited by Seila Law as
reasons for concluding that CFPB’s structure ran afoul
of separation-of-powers principles are fully applicable
to FHFA’s structure. In particular, the FHFA is
headed by a single Director, thereby rendering
inapplicable the Humphrey’s Executor exception for
certain multimember agencies. And the FHFA Director
is unquestionably a principal officer who wields
substantial executive power, thereby rendering
inapplicable the Morrison exception for inferior
officers.3 Seila Law’s rationale for invalidating the

3

In attempting to distinguish between principal officers
and inferior officers for purposes of Appointments Clause issues,

12
removal restrictions for the CFPB Director are thus
directly applicable here: “While we have previously
upheld limits on the president’s removal authority in
certain contexts, we decline to do so when it comes to
principal officers who, acting alone, wield significant
executive power.” 140 S. Ct. at 2211.
B.

Th er e
A re
No
Mea n in g f u l
Distinctions Between the FHFA
Removal Restriction and the One
Invalidated in Seila Law

For all the reasons the Court listed for declining
to extend the Humphrey’s Executor and Morrison
exceptions to CFPB’s structure, it should not extend
those exceptions to FHFA’s structure. The structures
and functions of those two “companion” agencies, both
established “in response to the same financial crisis,”
Seila Law, 140 S. Ct. at 2202, are remarkably similar.
The Director of each agency:
Serves as the sole head of the agency;
May be removed from office by the President
only for cause;
Is appointed for a five-year term, longer than
that of the President, meaning that “some
the Court has explained, “Generally speaking, the term ‘inferior
officer’ connotes a relationship with some higher ranking officer
or officers below the President: Whether one is an ‘inferior’ officer
depends on whether he has a superior.” Edmond v. United States,
520 U.S. 651, 662-63 (1997). The FHFA Director does not report
to any higher-ranking officer below the President.

13
Presidents may not have any opportunity to
shape its leadership and thereby influence its
activities.” Id. at 2204.
Seila Law focused heavily on CFPB’s “singleDirector configuration,” terming that structure
“incompatible with our constitutional structure.” The
Court noted that the Founders adopted government
structures that, to the extent possible, divided
government power so as to “preserv[e] liberty.” 140 S.
Ct. at 2202. “To prevent the ‘gradual concentration’ of
power in the same hands, they enabled ‘[a]mbition to
counteract ambition’ at every turn.” Ibid (quoting The
Federalist No. 51, p. 349 (J. Cooke ed. 1961) (J.
Madison)).
The Constitution’s one exception to that division
is the Executive Branch; it concentrates all executive
power in the hands of the President, to enable the
President to resist encroachment from the legislative
branch. Id. at 2203. To guard against abuse of power
by the President, the Constitution makes the President
accountable to the people through elections every four
years:
The resulting constitutional strategy is
straightforward: divide power everywhere
except for the Presidency, and render the
President directly accountable to the
people through regular elections. In that
scheme, individual executive officials will
still wield significant authority, but that
authority remains subject to the ongoing
supervision and control of the elected
President.
Through the President’s

14
oversight, “the chain of dependence [is]
preserved,” so that “the lowest officers,
the middle grade, and the highest” all
“depend, as they ought, on the President,
and the President on the community.”
Ibid (quoting 1 Annals of Cong. 499 (J. Madison)).
The Court determined that CFPB’s singleDirector structure “contravenes this carefully
calibrated system by vesting significant power in the
hands of a single individual accountable to no one,”
and that the Director’s “insulation from removal by an
accountable President is enough to render the agency’s
structure unconstitutional.” Id. at 2203-04. The
FHFA Director’s similar “insulation from removal by
an accountable President” renders the FHFA’s
structure unconstitutional for identical reasons.
Judge Higginson, who dissented from the Fifth
Circuit’s holding that FHFA is unconstitutionally
structured, did not contest that HERA grants
significant power to the Director or that the Director is
insulated from removal by an accountable President.
Rather, he argued that the President had “direct
control” over FHFA “via the bargaining power of the
Secretary [of the Treasury]” because FHFA “undertook
every action at issue here by agreement with the
Secretary of Treasury, a purely executive officer
serving at the pleasure of the President.” Pet. App.
135. But the constitutionality of FHFA’s structure
does not depend on whether the President disagrees
with any particular decision of the FHFA Director;
what matters is whether the President can control the
Director’s actions and thus be fully accountable to the

15
people for those actions. HERA’s for-cause removal
restriction means that the President lacks the requisite
direct control. Free Enterprise Fund, 561 U.S. at 497
(explaining that “the separation of powers does not
depend on the views of individual Presidents, ... nor on
whether the encroached-upon branch approves the
encroachment”).
Indeed, a President may have
rational reasons for wishing that control over
contentious executive actions be delegated to others,
thereby enabling him to plausibly assert no
responsibility for controversial decisions. But that is
not the constitutional design mandated by the
Founders.
Moreover, Judge Higginson is merely
speculating that a President-controlled FHFA might
have adopted the Third Amendment. To establish
standing to challenge FHFA’s unconstitutional
structure, the Shareholders are not required to offer
“precise proof of what [FHFA’s] policies might have
been in that counterfactual world.” Id. at 512 n.12. It
is enough to show that they sustained injury from the
actions of an unconstitutionally structured agency.
Seila Law, 140 S. Ct. at 2196.
In its brief discussion of FHFA, Seila Law
mentions one factual distinction between FHFA and
CFPB: FHFA “regulates primarily Governmentsponsored entities, not purely private actors.” 140 S.
Ct. at 2202. But nothing in Seila Law suggests that
the distinction is relevant to the separation-of-powers
analysis, nor is it. Seila Law determined that the
CFPB Director’s status as a principal officer who was
“insulat[ed] from removal by an accountable President”
was sufficient “to render the agency’s structure

16
unconstitutional.” Id. at 2004. It did not focus on the
types of entities or individuals regulated by CFPB.
The Court described the CFPB Director’s powers
as follows:
The Director may unilaterally, without
meaningful supervision, issue final
regulations, oversee adjudications, set
enfor cem ent pri orities, initiate
prosecutions, and determine what
penalties to impose on private parties.
With no colleagues to persuade, and no
boss or electorate looking over her
shoulder, the Director may dictate and
enforce policy for a vital segment of the
economy affecting millions of Americans.
140 S. Ct. at 2203-04 (emphasis in original).
Much the same could be said about the extensive
powers and complete independence of the FHFA
Director. HERA authorizes the Director to, inter alia,
issue cease-and-desist orders to Fannie Mae and
Freddie Mac. 12 U.S.C. § 4631. The Director has
chosen not to resort to such enforcement orders,
instead choosing to take the much more extreme steps
of placing Fannie Mae and Freddie Mac into
conservatorship and then unilaterally deciding to enter
into financial agreements with Treasury that
effectively nationalized those entities.
Fannie Mae and Freddie Mac are publicly traded
companies with private shareholders. No one seriously
questions their utmost importance to the housing

17
finance system. They provide liquidity and stability to
the national mortgage market—primarily by buying
home loans from lenders, pooling some of those loans
into mortgage-backed securities, and selling the
securities to investors. They control multi-trilliondollar mortgage portfolios, a significant percentage of
the total U.S. mortgage market. By regulating the
GSEs, the federal government is regulating a critical
component of the Nation’s economy, and HERA grants
FHFA extremely broad regulatory powers. Seila Law
dictates that exercises of executive power of such wide
scope must be placed under the President’s control.
Even if the GSEs were classified as purely public
institutions (which they are not), separation-of-powers
principles would nonetheless be fully applicable and
would prevent Congress from placing the power to
execute HERA into the hands of a single individual not
subject to the President’s control. That Congress has
not assigned removal powers to itself is irrelevant to
the separation-of-powers analysis. Free Enterprise
Fund observed that “one branch’s handicap is another’s
strength” and thus that Congress can gain advantage
for itself merely by reducing the President’s executive
powers. 561 U.S. at 500. The Court stated, “‘Even
when a branch does not arrogate power to itself,’
therefore, it must not ‘impair another in the
performance of its constitutional duties.’” Ibid (quoting
Loving v. United States, 517 U.S. 748, 757 (1998)).
CFPB and FHFA share another common trait:
each receives funding outside the appropriations
process. Seila Law held that such off-budget funding
exacerbates separation-of-powers concerns because it
accentuates an agency’s freedom from supervision:

18
The CFPB’s receipt of funds outside the
appropriations process further aggravates
the agency’s threat to Presidential
control. The President normally has the
opportunity to recommend or veto
spending bills that affect the operations of
administrative agencies. ... but no similar
opportunity exists for the President to
influence the CFPB Director. Instead, the
Director receives over $500 million per
year [from the Federal Reserve] to fund
the agency’s chosen priorities. ... This
financial freedom makes it even more
likely that the agency will “slip from the
Executive’s control, and thus from that of
the people.”
Seila Law, 140 S. Ct. at 2204 (quoting Free Enterprise
Fund, 561 U.S. at 499).
FHFA’s similar off-budget funding scheme raises
identical constitutional concerns. As the Fifth Circuit
noted, FHFA “runs on annual assessments collected
from the GSEs, not public or appropriated money.”
Pet. App. 9 (citing 12 U.S.C. § 4516). FHFA’s authority
to determine its own budget is essentially unchecked;
§ 4516(a) states that “[t]he Director shall establish and
collect from the regulated entities annual assessments
in an amount not exceeding the amount sufficient to
provide for reasonable costs (including administrative
costs and expenses) of the Agency.” The appeals court
held that this funding scheme renders FHFA, “in stark
contrast to nearly all other administrative agencies ...
immune from presidential control.” Id. at 224. The
court explained:

19
By placing an agency outside the normal
appropriations process, the President
loses leverage over the agency’s activities.
As Justice Breyer’s Free Enterprise
dissent recognized, “who controls the
agency’s budget requests and funding”
affects the “full measure of executive
power” to oversee an agency; an agency’s
funding stream “affect[s] the President’s
ability to get something done.”
Id. at 223 (quoting Free Enterprise Fund, 561 U.S. at
524 (Breyer, J., dissenting)). In sum, FHFA’s level of
budgeting independence is at least as great as CFPB’s,
meaning that it too can slip from the President’s
control—and thus that of the people.
C.

The FHFA Removal Restriction
Lacks Any Historical Pedigree

Seila Law explained that “[p]erhaps the most
telling indication of a severe constitutional problem
with an executive entity is a lack of historical
precedent to support it.” 140 S. Ct. at 2201 (citation
omitted).
The Court held that CFPB was
unconstitutionally structured in part because “[a]n
agency with a structure like that of the CFPB is almost
wholly unprecedented.” Ibid.
The Court identified FHFA as one of only three
other modern agencies with a structure similar to
CFPB’s: the provision of “good-cause tenure to
principal offers who wield power alone rather than as
members of a board or commission.” Ibid. By so
identifying FHFA, the Court implicitly determined

20
that FHFA’s structure was also “almost wholly
unprecedented”—thereby raising a constitutional red
flag over both agencies.
The Court identified the other similarly
structured agencies as the Office of Special Counsel
(OSC), which has been headed by a single officer since
1978; and the Social Security Administration (SSA),
which has been run by a single Administrator since
1994. The constitutionality of the structures of OSC
and SSA are, of course, not now before the Court. It
bears noting that both structures are of relatively
recent origin and have been a source of controversy.
For example, President Carter’s Justice Department
opposed a for-cause removal restriction for OSC’s head
at the time of its creation (opining that the
Constitution required that the Special Counsel “must
be removable at will by the President”), and President
Reagan vetoed later legislation regarding the OSC due
to serious constitutional concerns about the Office’s
status as an independent agency. See Seila Law, 140
S. Ct. at 2201. Further, when the SSA was changed
from a multimember agency to a single-director agency
in 1994, President Clinton issued a signing statement
pronouncing that the change in the agency’s structure
was constitutionally problematic. Id. at 2202. The
“unprecedented nature” of FHFA’s single-director
structure, combined with the controversy surrounding
the few other agencies with similar structures, provide
further support for the conclusion that FHFA is
unconstitutionally structured.
In contrast, those instances in which the Court
has upheld for-cause removal restrictions have
involved agency structures with lengthy pedigrees. For

21
example, independent agencies headed by
multimember commissions have existed since at least
1887, when Congress created the Interstate Commerce
Commission. Congress’s right to provide for-cause
removal protection to inferior officers appointed by the
heads of their departments has been recognized by the
Court since at least 1886. United States v. Perkins,
116 U.S. 483, 485 (1886).4
NCLA is not suggesting that Humphrey’s
Executor (which upheld removal restrictions for the
heads of multimember expert agencies that do not
wield substantial executive power) was correctly
decided. Indeed, Seila Law called into question the
continued viability of Humphrey’s Executor, and NCLA
urges the Court to overrule it. As Justice Thomas has
warned:
Continued reliance on Humphrey’s
Executor to justify the existence of
independent agencies creates a serious,
ongoing threat to our Government’s
design. Leaving these unconstitutional
agencies in place does not enhance this
Court’s legitimacy; it subverts political

4

Such for-cause removal protection is deemed not to
interfere with the President’s authority to ensure that the laws
are faithfully executed, because the President retains plenary
power to remove the inferior officer’s superior. Morrison, 487 U.S.
at 724 n.4 (Scalia, J., dissenting). The President thereby
maintains effective control over the inferior officer, who can be
removed for cause if he disobeys an order that the President
directs the superior to convey to him. Ibid.

22
accountability and threatens individual
liberty.
Seila Law, 140 S. Ct. at 2218-19 (Thomas, J., joined by
Gorsuch, J.) (concurring in part and dissenting in
part).
But the Court need not revisit Humphrey’s
Executor to strike down the removal restriction at issue
here. FHFA’s structure (an independent agency
headed by one individual) is indistinguishable from the
CFPB structure held unconstitutional in Seila Law and
lacks the one claim to legitimacy—a lengthy historical
pedigree—possessed by independent agencies headed
by a multimember commission.
D.

Non-jurisdictional Objections to
Addressing the Shareholders’
Separation-of-Powers Claims Are Not
Properly Before the Court

In its opposition brief, the United States raised
three non-jurisdictional objections to granting the
petition to consider the separation-of-powers issue.
The government has waived those objections, and thus
they should not be considered by the Court if raised
again in its principal brief. Moreover, although the
Court has appointed an amicus curiae to file a brief in
“support of the position that the structure of [FHFA]
does not violate the separation of powers,” it would be
inappropriate for the Court to consider those issues sua
sponte.

23
The three objections raised by the United States
in its opposition brief were: (1) the challenged action,
(the adoption of the Third Amendment) was taken by
Acting FHFA Director Edward DeMarco, and an Acting
Director enjoys no statutory protection from removal;
(2) HERA’s succession clause bars the Shareholders’
constitutional challenge; and (3) FHFA agreed to the
Third Amendment in its capacity as conservator of
Fannie Mae and Freddie Mac, and the performance of
conservatorship tasks does not involve any exercise of
the executive power of the United States. Opp. Br. 1518. The Fifth Circuit correctly decided each of those
issues in the Shareholders’ favor, and the United
States did not raise them in its cross-petition.
Accordingly, the United States has waived the issues
and may not raise them in this Court. Northwest
Airlines, Inc. v. County of Kent, 510 U.S. 355, 364
(1994) (a respondent may not seek to alter the
judgment below without filing a cross-petition).
Nor should the Court address those issues on its
own initiative.
Under the principle of party
presentation, “in both civil and criminal cases, in the
first instance and on appeal ..., we rely on the parties
to frame the issues for decision and assign to courts the
role of neutral arbiter of matters the parties present.”
United States v. Sineneng-Smith, 140 S. Ct. 1575, 1579
(2020) (citation omitted). Courts “wait for cases to
come to [them], and when [cases arise, courts] normally
decide only questions presented by the parties.” Ibid
(parentheticals supplied by Court) (quoting United
States v. Samuels, 808 F.2d 1298, 1301 (8th Cir.
1987)).

24
The Court departs from the party-presentation
principle only in “extraordinary circumstances.” Id. at
1581. No extraordinary circumstances are present
here. The United States is ably represented by the
Justice Department, and it chose not to seek review of
the three non-jurisdictional issues cited above. Justice
Ginsburg’s opinion for the Court in Sineneng-Smith
included an Addendum that listed the occasions on
which the Court has called for supplemental briefing or
appointed amicus curiae since 2015; in none of those
cases did the Court entertain briefing on a nonjurisdictional issue that the respondent lost in the
lower court and on which it failed to file a crosspetition.
The Addendum explained, “We have appointed
amicus curiae to present argument in support of the
judgment below when a prevailing party has declined
to defend the lower court’s decision or an aspect of it, ...
and to address the Court’s jurisdiction to decide the
question presented.” Id. at 1282-83. Applying those
criteria, the principle of party presentation dictates
that the Court should not entertain arguments from
the court-appointed amicus curiae with respect to the
three non-jurisdictional issues waived by the United
States.5 The Court’s past practice is clear: it does not

5

Moreover, none of the three issues presents a serious
challenge to the Fifth Circuit’s separation-of-powers holding. For
example, FHFA quite clearly exercises executive power when it
carries out its conservatorship function. As Judges Oldham and
Ho explained in their separate opinion, “[T]he power to execute
the law is the power to follow a legislative instruction and
‘transform [legislative] intentions into reality.’” Pet. App. 108
(quoting Julian Davis Mortensen, Article II Vests the Executive

25
appoint amici curiae to argue against holdings of the
lower court when, as here, the party that lost below
has not sought review.
II.

THE SHAREHOLDERS ARE ENTITLED TO A
MEANINGFUL REMEDY FOR THE INJURY THEY
INCURRED AS A RESULT OF THE
CONSTITUTIONAL VIOLATION

Although the Fifth Circuit ruled that FHFA is
unconstitutionally structured, it granted the
Shareholders no meaningful relief. It held that the
“appropriate” remedy for the constitutional violation is
to sever from HERA the “for cause” restriction on
removal of the FHFA Director (12 U.S.C. § 4512(b)(2)).
Pet. App. 73. The appeals court said, “[N]othing in the
statutory scheme suggests that Congress would prefer
a complete unwind of actions taken by the FHFA to an
FHFA director removable at will.”
By limiting its remedy to prospective relief only,
the Fifth Circuit has provided no relief at all to the
Shareholders. The focus of their lawsuit has been to
remedy the injury they incurred when an
unconstitutionally structured federal agency wiped out
their shareholder value by effectively nationalizing
Fannie Mae and Freddie Mac. Now that their property

Power, Not the Royal Prerogative, 119 Colum. L. Rev. 1169, 1236
(2019)). See Bowsher, 478 U.S. at 733 (“Interpreting a law enacted
by Congress to implement the legislative mandate is the very
essence of ‘execution’ of the law.”). FHFA’s Director executed
HERA when he adopted the Third Amendment and when he made
use of HERA and the Third Amendment to sweep the GSEs’
profits into the federal treasury.

26
has been rendered worthless, they have a greatly
reduced interest in what FHFA may do in the future,
so curing the constitutional defect in FHFA’s structure
on a prospective basis is of little interest to them.
It is of no moment that Congress may prefer
severance of § 4512(b)(2) to unwinding some or all of
the actions taken by FHFA while it was
unconstitutionally structured. Of course that would be
Congress’s preference; indeed, the first preference of
the Congress that adopted FHFA undoubtedly was
that the Courts would uphold the constitutionality of
FHFA’s structure. But Congress does not get to choose
the appropriate remedy when courts determine that a
statute it adopted violates the Constitution; that is for
the courts to decide.6
The Shareholders suffered significant injury
when an unconstitutionally structured federal agency
that had no power to act confiscated the value of their
shares in Fannie Mae and Freddie Mac by effectively
nationalizing the GSEs. NCLA takes no position on
the precise relief to which they are entitled, e.g.,
whether the Court should simply set aside the Third
Amendment or whether it should remand to the
district court for consideration of whether to unwind a
greater percentage of FHFA’s unauthorized actions.
But NCLA believes that the Shareholders are entitled
to some sort of meaningful remedy; the prospective-

6

The issue of Congress’s likely preference arises only in
connection with choosing between severance of an
unconstitutional provision in a statute or invalidating the entire
statute. See Free Enterprise Fund, 561 U.S. at 508.

27
only relief awarded by the Fifth Circuit is of no value
to them.
This Court routinely sets aside actions taken by
administrative agencies when their authority to act is
successfully questioned. Thus, in Lucia v. SEC, 138 S.
Ct. 2044 (2018), the Court overturned sanctions
imposed on the target of an SEC administrative
enforcement action after it determined that the ALJ
who conducted trial proceedings had been
unconstitutionally appointed to his position. The
Court ordered that SEC conduct a new hearing before
a different ALJ. 138 S. Ct. at 2051. Similarly, the
Court invalidated an NLRB unfair-labor-practice order
after determining that three of the NLRB Members
who voted to impose the order were not authorized to
act—because they had been appointed to the NLRB in
violation of the Appointments Clause. NLRB v. Noel
Canning, 573 U.S. 513 (2014).
Because FHFA is unconstitutionally structured,
it has lacked authority to act throughout the entire
decade of its existence. And because FHFA has by this
time taken a multitude of unauthorized actions,
devising an equitable remedy for those injured by
FHFA’s actions may be a complicated task. But its
complexity should not be an excuse for providing no
retrospective relief. For one thing, denying all such
relief provides precisely the wrong incentives for
government actors. Congress will have no incentive to
avoid creating administrative-agency structures that
violate separation-of-powers principles if it concludes
that courts will do no more than tell the government,
“Don’t do it again.”

28
More importantly, prospective-only remedies of
this sort deprive citizens of all incentive to sue to
prevent unconstitutional government activity. The
Shareholders have devoted considerable time and
resources to their successful effort to demonstrate the
unconstitutionality of FHFA’s structure. Such efforts
in support of constitutional principles ought to be
encouraged and rewarded.
This Court has repeatedly emphasized the need
to structure relief in Appointments Clause cases to
avoid “creat[ing] a disincentive to raise Appointments
Clause challenges with respect to questionable judicial
appointments.” Ryder v. United States, 515 U.S. 179,
183 (1995). Similarly, to remedy the Appointments
Clause violation in Lucia, the Court ordered that any
future proceedings be conducted by a new ALJ,
regardless whether the initial ALJ was re-appointed in
accordance with Appointments Clause procedures.
Lucia, 138 S. Ct. at 2055 n.5. The Court explained
that awarding the petitioner the right to a hearing
before a different ALJ was an appropriate remedy
because it “create[d] incentives to raise Appointments
Clause challenges.” Ibid. Devising remedies that
provide prevailing plaintiffs with some meaningful
relief is similarly necessary to encourage individuals to
file lawsuits raising separation-of-powers claims.

29
CONCLUSION
The Court should affirm the Fifth Circuit’s
holding that FHFA’s structure violates the separation
of powers. It should reverse the appeals court’s
determination that Petitioners are entitled to
prospective relief only and instead order relief that
remedies Petitioners’ injuries.
Respectfully submitted,
Richard A. Samp
(Counsel of Record)
Mark Chenoweth
Harriet M. Hageman
NEW CIVIL LIBERTIES ALLIANCE
1225 19th St. NW, Suite 450
Washington, DC 20036
(202) 869-5210
rich.samp@ncla.legal
Dated: September 23, 2020

